So
I

@OCKLE

2311 Douglas Street i
chads Noscuncntoa mi4 Legal Briefs
1-800-225-6964
(402) 342-2831

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-431 and 19-454

THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME, PETITIONER,

v.
THE COMMONWEALTH OF PENNSYLVANIA AND THE
STATE OF NEW JERSEY, ET AL., RESPONDENTS.

DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, ET AL., PETITIONERS,

v.
THE COMMONWEALTH OF PENNSYLVANIA AND THE
STATE OF NEW JERSEY, ET AL., RESPONDENTS.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Ist day of November, 2019, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF FOR THE CATO INSTITUTE AND JEWISH COALITION
FOR RELIGIOUS LIBERTY AS AMICI CURIAE SUPPORTING PETITIONERS in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JOSH BLACKMAN ILYA SHAPIRO
1303 San Jacinto Street Counsel of Record
Houston, TX 77002 Cato Institute
(713) 646-1829 1000 Mass. Ave., NW
jblackman@stcl.edu Washington, DC 20001
(202) 842-0200
ishapiro@cato.org

Subscribed and sworn to before me this 1st day of November, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . .
State of Nebraska : Lu ,
My Commission Expires Nov 24, 2020 «

Notary Public Affiant 38809

 

 
 

Attorneys for Petitioner

Mark Leonard Rienzi The Becket Fund for Religious Liberty 202-349-7208
Counsel of Record 1200 New Hampshire Ave., NW.
Suite 700
Washington, DC 20036

mrienzi@becketlaw.org

Party name: The Little Sisters of the Poor Saints Peter and Paul Home

 

Attorneys for Respondents

Michael J. Fischer Pennsylvania Office of Attorney General 215-560-2171
Counsel of Record 1600 Arch St.
Suite 300
Philadelphia, PA 19103

mfischer@attorneygeneral.gov

Party name: Commonwealth of Pennsylvania et al.

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Federal Respondents

 
